CERTIFICATE OF COMPLIANCE

No.
Isaac Levin,
Petitioner,
V.
Kenneth J. Frank, Brian Seachrist, The City of Binghamton
Respondents.
As required by Supreme Court Rule 33.1(h), I, Isaac Levin, certify that the
petition for a writ of certiorari contains 3993 words, excluding the parts of the
petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 17, 2020

r C

Isaac Levin
Petitioner, Pro se
960 Cliffside Avenue
N. Woodmere NY 11581
516-374-0188
Isaaclevin2010@gmail .com

RECEIVED
NOV 2 5 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

